No. 20-827

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
AKA ABU ZUBAYDAH, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE UNITED STATES

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
A.
B.

C.

Respondents seek discovery that would confirm or
deny whether a CIA detention facility existed in
Poland ............................................................................... 2
The state-secrets privilege bars respondents’
discovery request ............................................................. 6
1. The Ninth Circuit failed to afford appropriate
deference to the CIA Director’s nationalsecurity judgment..................................................... 7
2. Mitchell and Jessen’s contractor status does
not diminish the national-security harm from
discovery .................................................................. 12
3. Purported “public knowledge” does not
undermine the national-security harm from
discovery .................................................................. 14
Section 1782 does not authorize respondents’
extraordinary discovery request .................................. 21
TABLE OF AUTHORITIES

Cases:
Abilt v. CIA, 848 F.3d 305 (4th Cir. 2017) ............................. 8
Alfred A. Knopf, Inc. v. Colby,
509 F.2d 1362 (4th Cir. 1975), cert. denied,
421 U.S. 908, and 421 U.S. 992 (1975) ............................... 13
CIA v. Sims, 471 U.S. 159 (1985) ....................................... 6, 7
Fitzgibbon v. CIA, 911 F.2d 755 (D.C. Cir. 1990) ......... 13, 14
Halkin v. Helms, 690 F.2d 977 (D.C. Cir. 1982)................. 14
Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004).............................................................. 21
Knight First Amdt. Inst. v. CIA, No. 20-5045, 2021
WL 3821864 (D.C. Cir. Aug. 27, 2021) .............................. 13
Medellin v. Texas, 554 U.S. 491 (2008) ............................... 19
Mobley v. CIA, 806 F.3d 568 (D.C. Cir. 2015)..................... 13
(I)

II
Cases—Continued:

Page

National Sec. Archive v. CIA, 752 F.3d 460
(D.C. Cir. 2014) ..................................................................... 6
New York Times v. CIA,
965 F.3d 109 (2d Cir. 2020) ................................................ 13
Phillippi v. CIA, 655 F.2d 1325 (D.C. Cir. 1981)................ 14
Public Citizen v. Department of State,
11 F.3d 198 (D.C. Cir. 1993)................................................. 6
Rivero v. City & Cnty. of S.F., 316 F.3d 857
(9th Cir. 2002)...................................................................... 22
Schlich, In re, 893 F.3d 40 (1st Cir. 2018) ............................. 3
Taylor v. Sturgell, 553 U.S. 880 (2008) ................................ 19
United States v. Nixon, 418 U.S. 683 (1974)......................... 7
United States v. Reynolds, 345 U.S. 1 (1953) ... 7, 8, 9, 10, 14
Weinberger v. Catholic Action of Hawaii/Peace
Educ. Project, 454 U.S. 139 (1981) ...................................... 8
Treaty, statutes, regulation, and rule:
Convention for the Protection of Human Rights
and Fundamental Freedoms, arts. 19, 46, Nov. 4,
1950, 213 U.N.T.S. 221, as amended, https://www.
echr.coe.int/Documents/Convention_ENG.pdf ............... 19
Treaty Between the United States of America and
the Republic of Poland on Mutual Legal Assistance
in Criminal Matters, U.S.-Pol., July 10, 1996,
T.I.A.S. No. 99-917.1, as amended .................................... 23
28 U.S.C. 1782 ...............................................2, 3, 11, 19, 21, 23
28 U.S.C. 1782(a) ............................................................. 21, 22
42 U.S.C. 2000dd-2 .................................................................. 5
50 U.S.C. 3161 note.................................................................. 5
Exec. Order No. 13,526, § 3.1(d), 3 C.F.R. 306
(2009 comp.) ........................................................................... 5
Sup. Ct. R. 14.1(a) .................................................................. 21

III
Miscellaneous:

Page

1 Central Intelligence Agency, Official History of the
Bay of Pigs Operation: Air Operations, March
1960-April 1961 (1979), https://go.usa.gov/xMCYq......... 15
Antonio J. Mendez, A Classic Case of Deception,
Studies in Intelligence (Winter 1999-2000 Unclassified Ed.) (online version), https://go.usa.gov/xMb2r ....... 15
Office of the Dir. of Nat’l Intelligence, DNI Message
to the Intelligence Community Workforce on the
Release of the SSCI Report (Dec. 9, 2014),
https://go.usa.gov/xFhMX ................................................... 5
Office of the Inspector General, Central Intelligence
Agency, Counterterrorism Detention and Interrogation Activities (September 2001-October 2003)
(May 7, 2004), https://go.usa.gov/xMj6q .......................... 16
Periodic Review Secretariat, U.S. Dep’t of Def., Subsequent Full Review, https://go.usa.gov/xMxnZ ............. 10
S. Rep. No. 288, 113th Cong., 2d Sess. (2014)................. 5, 16

In the Supreme Court of the United States
No. 20-827
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
AKA ABU ZUBAYDAH, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE UNITED STATES

Over the dissent of twelve judges, the Ninth Circuit
rejected the government’s assertion of the state-secrets
privilege and allowed respondents to seek discovery of
classified information from two former Central Intelligence Agency (CIA) contractors. Any information respondents obtain would be used exclusively in a foreign
criminal proceeding, the very purpose of which is to
probe clandestine CIA activities that allegedly occurred
in Poland.
The government’s opening brief demonstrates that
the Ninth Circuit seriously erred by failing to accord
appropriate deference to the CIA Director’s considered
national-security judgment. Instead, the Ninth Circuit
improperly relied on its own belief—based largely on its
assessment of purported “public knowledge”—that the
compelled evidence would not harm the CIA’s foreign

(1)

2
intelligence partnerships or otherwise compromise national security. And even setting aside the state-secrets
privilege, the government’s brief also shows that the
Ninth Circuit’s judgment should be reversed on the independent ground that 28 U.S.C. 1782 does not authorize the extraordinary discovery sought here. Respondents offer no persuasive response to either argument,
and their effort to defend the Ninth Circuit’s judgment
on other grounds is equally unsound.
A. Respondents Seek Discovery That Would Confirm Or
Deny Whether A CIA Detention Facility Existed In Poland

The essential premise of the Ninth Circuit’s decision
was that the state-secrets privilege does not cover certain purported “basic facts” involving Poland. Pet. App.
18a. Specifically, the Ninth Circuit held that the privilege does not extend to whether the CIA held Abu
Zubaydah at an alleged “detention facility in Poland” or
to “details of Abu Zubaydah’s treatment there.” Id. at
21a. Tellingly, respondents’ lead argument in this
Court does not try to defend that central holding. Instead, respondents assert (Br. 26-29) that their requested discovery could proceed without confirming or
denying whether a CIA detention facility existed in Poland. That assertion strains credulity—which is precisely why the district court rejected it.
1. The subpoenas respondents served on Mitchell
and Jessen (App., infra, 1a, 3a-14a) expressly and repeatedly demand discovery about a purported “detention facility in Stare Kiejkuty, Poland.” Id. at 7a-8a,
13a-14a. As the district court explained, all but one of
the subpoenas’ 13 document requests “specifically reference Poland.” Pet. App. 56a. And by their very na-

3
ture, all of respondents’ requests necessarily seek evidence about Poland: Respondents themselves have consistently argued that discovery is warranted because
Abu Zubaydah “filed a criminal complaint in Poland
seeking to hold Polish officials accountable for their
complicity in [his] unlawful detention and torture” at an
alleged CIA facility “in Stare Kiejkuty, Poland”; that
the resulting “Polish criminal investigation” is “examining whether Polish officials violated [Polish] law”; and
that the discovery respondents seek from Mitchell and
Jessen—who respondents contend have evidence about
“crimes committed against Abu Zubaydah on Polish
soil” in the “presence of Polish officials”—“would aid
the Polish prosecutors in their understanding of Polish
civilian and governmental complicity” in the operation
of the alleged CIA detention facility in Poland. Id. at
113a-114a, 116a.
Given that context, respondents cannot plausibly
maintain that discovery could avoid confirming or denying the existence of an alleged detention facility in Poland merely by avoiding express geographic references.
Cf. Resp. Br. 28. As the district court explained in rejecting the same suggestion, “[a]llowing the matter to
proceed with a code word, such as ‘detention site blue,’
to replace Poland seems disingenuous.” Pet. App. 56a.
After all, “the entire premise of the proceeding” is to
seek evidence to aid “Polish prosecutorial efforts.” Id.
at 31a (dissent). Indeed, if the requested evidence were
not relevant to those Polish proceedings, there would be
no basis for allowing discovery. See In re Schlich, 893
F.3d 40, 52 (1st Cir. 2018) (Section 1782 applicant must
show that discovery is “relevan[t]” to the foreign proceeding).

4
2. Respondents emphasize (Br. 7-10, 27-29) that
Mitchell and Jessen have testified about the treatment
of CIA detainees in other contexts. But that only underscores the problem: In those proceedings, the testimony did not reveal anything about the information the
government seeks to protect here—the locations of former CIA detention facilities and the involvement of its
foreign partners.
The Salim plaintiffs, for instance, asserted federal
damages claims against the CIA contractors based on
the contractors’ own actions. See Cert. Reply Br. 6.
Those claims hinged on the nature of plaintiffs’ treatment in CIA custody; where that treatment occurred
was irrelevant, and the Salim court properly protected
that location information from discovery. Ibid. Similarly, when the contractors’ testified about detainees’
treatment in military-commission proceedings, the tribunal consistently and properly prohibited testimony
that might identify the locations of CIA facilities. 1
Here, by contrast, respondents’ requests are inescapably tied to Poland because they seek evidence for a
Polish criminal investigation into alleged “Polish official
complicity” in Abu Zubaydah’s alleged detention in Poland. Pet. App. 114a.
3. Leveraging prior authorized disclosures of other
information to compel discovery here would create perverse incentives and undermine transparency. The government has acknowledged—and has facilitated public
See, e.g., 1/21/2020 Tr. at 30,164-30,166, 30,190, United States v.
Khalid Shaikh Mohammad (Military Comm., Guantanamo Bay,
Cuba), https://go.usa.gov/xMx35; 9/9/2019 Tr. at 24,842-24,843,
Mohammad, supra, https://go.usa.gov/xMCtF; Appellate Ex.
013BBBB, at 5, 16, Mohammad, supra (July 6, 2015), https://go.usa.
gov/xMCeV.
1

5
scrutiny of—the former use of enhanced interrogation
techniques (EITs), which Senate Report No. 288, 113th
Cong., 2d Sess. (2014) (SSCI Report), addresses at
length. After extensive internal and inter-Branch discussions, the Executive Branch made “unprecedented
efforts to enable the release of as much of the [SSCI Report] as possible,” thereby enabling an important public
debate while continuing to protect other information in
light of the “enduring need to protect national security.”
Office of the Dir. of Nat’l Intelligence, DNI Message to
the Intelligence Community Workforce on the Release
of the SSCI Report (Dec. 9, 2014), https://go.usa.gov/
xFhMX; see U.S. Br. 3, 5-6; Exec. Order No. 13,526,
§ 3.1(d), 3 C.F.R. 306 (2009 comp.) (50 U.S.C. 3161 note)
(authorizing “discretion[ary]” declassification by the
Executive Branch of properly classified information in
“exceptional cases” if it determines that “the public interest in disclosure outweighs the damage to the national security that might reasonably be expected from
disclosure”). In the wake of that public debate, Congress prohibited federal agencies like the CIA from using interrogation techniques not authorized by the
Army Field Manual. 42 U.S.C. 2000dd-2; see U.S. Br.
19 n.2.
That prior release of information facilitated public
examination of the United States’ actions. But it did not
vitiate the government’s need to protect evidence confirming or denying whether particular foreign countries hosted the CIA’s clandestine detention facilities.
The presence of former CIA facilities in those countries
remains properly classified and, as CIA Director Pompeo explained, cannot be confirmed or denied by Mitchell and Jessen without jeopardizing critical current and

6
future clandestine intelligence cooperation from those
(and other) foreign partners. U.S. Br. 10-13, 38.
Compelling Mitchell and Jessen to produce the privileged evidence because of the government’s prior declassification of other information would effectively penalize the government for its earlier declassification decision. In so doing, it would create “a strong disincentive [for the government] ever to provide its citizenry
with [information] of any kind on sensitive topics.” Public Citizen v. Department of State, 11 F.3d 198, 203
(D.C. Cir. 1993); cf. National Sec. Archive v. CIA, 752
F.3d 460, 464 (D.C. Cir. 2014) (Kavanaugh, J.).
B. The State-Secrets Privilege Bars Respondents’ Discovery Request

Because respondents’ discovery requests would inevitably confirm or deny whether a CIA detention facility existed in Poland and their allegations about Abu
Zubaydah’s treatment there, their case depends on the
Ninth Circuit’s holding that the state-secrets privilege
does not cover that information. But that holding was
badly flawed. As the CIA Director explained, a court
order requiring CIA contractors to produce CIA location evidence would significantly undermine the United
States’ ability to provide our clandestine intelligence
partners “an assurance of confidentiality that is as absolute as possible” and would significantly prejudice the
government’s “ ‘compelling interest in protecting * * *
the appearance of confidentiality so essential to the effective operation of our foreign intelligence service,’ ”
CIA v. Sims, 471 U.S. 159, 175 (1985) (citation omitted).
In matters of foreign intelligence, “[g]reat nations, like
great men, should keep their word.” Id. at 175 n.20 (citation omitted). The Ninth Circuit’s decision flouts that
fundamental principle.

7
1. The Ninth Circuit failed to afford appropriate deference to the CIA Director’s national-security judgment

The Ninth Circuit’s mistakes began with its failure
to afford appropriate deference to the CIA Director’s
expert judgment about national-security harms. U.S.
Br. 22-26. This Court has long emphasized the “high
degree of deference” that should be afforded to such
judgments. United States v. Nixon, 418 U.S. 683, 710711 (1974); see U.S. Br. 22-25. And the need for deference is even greater here because respondents seek evidence to furnish to foreign prosecutors for use in a foreign criminal investigation probing alleged clandestine
CIA intelligence activity abroad. Respondents offer no
persuasive justification for the Ninth Circuit’s contrary
approach.
a. Respondents principally attack a strawman, asserting (Br. 41-44) that the government seeks “blind
deference” to “entirely escape judicial oversight.” That
is not so. No one denies that a court presented with an
assertion of the state-secrets privilege must “determine
whether the circumstances are appropriate for the
claim of privilege.” United States v. Reynolds, 345 U.S.
1, 8 (1953). But the court must make that determination
“without forcing a disclosure of the very thing the privilege is designed to protect” or substituting its judgment for the Executive Branch’s on matters squarely
within the Executive Branch’s responsibility and expertise. Ibid.; see, e.g., Sims, 471 U.S. at 170.
The problem here thus is not that the Ninth Circuit
examined the claim of privilege; it is that the court did
so without affording “any apparent deference” to the
CIA Director’s judgment on critical national-security
matters. Pet. App. 93a (dissent from denial of rehearing
en banc). Even respondents themselves ultimately do

8
not argue otherwise. To the contrary, they acknowledge (Br. 26) that the Ninth Circuit “declined to defer”
to the CIA Director’s judgment that compelling Mitchell and Jessen to confirm or deny the existence of a CIA
facility in Poland would harm the national security. 2
b. Respondents defend the Ninth Circuit’s refusal to
defer by asserting (Br. 43) that “there is no reason for
deference on the antecedent question of whether a secret actually exists.” But Reynolds demonstrates that
there is no such “antecedent question.” And even if
there were, deference would still be warranted.
In Reynolds, this Court held that the state-secrets
privilege applies if there is a “reasonable danger” that
compelled disclosure would expose matters that, “in the
interest of national security, should not be divulged.”
345 U.S. at 10; cf. Weinberger v. Catholic Action of
Haw./Peace Educ. Project, 454 U.S. 139, 146-147 (1981).
That governing standard does not include a preliminary
assessment by the court to decide whether it believes

Respondents err in asserting (Br. 45-46) that the government
previously embraced the approach employed by the Ninth Circuit
here. The brief on which respondents rely emphasized that “ ‘utmost deference’ ” was required and that the court of appeals there
had followed “established principles.” U.S. Br. in Opp. at 13, 15,
Mohamed v. Jeppesen Dataplan, Inc., 563 U.S. 1002 (2010) (No. 10778) (citation omitted), https://go.usa.gov/xM2S8. As that case illustrates, judicial use of the word “ ‘skeptical’ ” is consistent with the
understanding that “[a]ppropriate judicial oversight” can include
“ ‘very careful’ ” review of a privilege assertion while still providing
“ ‘utmost deference’ ” to Executive-Branch judgments. Abilt v. CIA,
848 F.3d 305, 312, 314 (4th Cir. 2017) (citations omitted). By contrast, the Ninth Circuit here applied an unprecedented form of review that the court itself deemed “contradictory” to its prior decisions that “ ‘acknowledge[d] the need to defer to the Executive,’ ”
Pet. App. 14a-15a, 17a n.14 (citation omitted). See U.S. Br. 25.
2

9
that the evidence a party seeks to compel is sufficiently
“secret.”
Under Reynolds, harm to national security remains
the touchstone. Here, for example, the question is not
whether the existence of a purported CIA detention facility in Poland or the details of Abu Zubaydah’s alleged
treatment there are “secret” in some abstract sense
given public speculation on those matters. Instead, the
question is whether compelling former CIA contractors
to confirm or deny that speculation under oath could
reasonably be expected to harm national security—by,
for example, undermining the CIA’s relationships with
foreign partners who rely on the CIA’s assurances of
confidentiality. That question indisputably implicates
“specialized executive-branch knowledge regarding national security” (Resp. Br. 26). The Ninth Circuit thus
seriously erred in refusing to afford any meaningful deference to the CIA Director’s judgment.
In any event, even if the question whether a matter
is “secret” could somehow be separated from a judgment about the likely effect of its disclosure on national
security, substantial deference would still be required.
Determining whether a secret “exists” in the sense respondents apparently mean (Br. 43) would require a
judgment about, inter alia, the broader intelligence landscape and the accuracy or inaccuracy of public speculation about clandestine CIA activities. Those matters lie
squarely within the expertise of the CIA Director. And
requiring the government to litigate such issues without
deference would risk thwarting the state-secrets privilege by “forcing a disclosure of the very thing the privilege is designed to protect.” Reynolds, 345 U.S. at 8.
c. Even greater deference is warranted here, where
respondents seek sensitive evidence from former CIA

10
contractors for export to a foreign investigation into alleged clandestine CIA activities abroad. U.S. Br. 39-42.
Respondents’ efforts to resist that commonsense conclusion are unconvincing.
First, respondents assert (Br. 40-41) that “[t]he intended use of evidence is irrelevant to whether it is privileged.” But Reynolds says otherwise. “In each case,”
this Court instructed, “the showing of necessity which
is made will determine how far the court should probe
in satisfying itself that the occasion for invoking the
privilege is appropriate.” 345 U.S. at 11.
Second, respondents argue (Br. 39-40) that they
have made a strong showing of necessity. Respondents
emphasize that Abu Zubaydah has procedural rights
under Polish law and that his detention prevents him
from participating in the Polish proceedings himself. 3
But respondents ignore entirely that Reynolds’ discussion of necessity focused on litigants’ need for evidence
“to make out their case” in a United States court adjudicating rights conferred by United States law. Reynolds, 345 U.S. at 11. Respondents have no comparable
need here. They present no substantive claims to a
United States court and assert no substantive rights under United States law; instead they seek to use the federal courts “as a vehicle for obtaining information that
will be sent to Poland, which has already tried but failed
to obtain this information through diplomatic channels.”
Pet. App. 108a (dissent from denial of rehearing en
The continuing necessity of Abu Zubaydah’s law-of-war detention is periodically reviewed; his habeas case is pending; and he communicates with his counsel for those proceedings. See Periodic Review Secretariat, U.S. Dep’t of Def., Subsequent Full Review,
https://go.usa.gov/xMxnZ; Cert. Reply Br. 5 n.*; Doc. 78, at 20-30,
Husayn v. Austin, No. 1:08-cv-1360 (D.D.C. Jan. 9, 2009).
3

11
banc). Even if such a request were a proper use of 28
U.S.C. 1782, but see pp. 21-24, infra, it would at minimum be a far less weighty need than that shown by the
domestic claims at issue in Reynolds and most other
state-secrets cases.
Third, respondents mistakenly argue (Br. 40-41) that
exporting evidence to a foreign tribunal beyond the control of the United States courts poses no heightened
risks. In cases adjudicated in the United States, a domestic court can maintain control over the evidence
with protective orders and in camera proceedings that
allow it to consider national-security risks on an ongoing basis. With such continuing control, a court can
change course and curtail proceedings if the litigation’s
evolution made those risks more apparent, and the
United States could seek appellate review if such protective action was declined. By contrast, the role of
United States courts in this Section 1782 proceeding
would end once the evidence was exported overseas.
The national-security risks from that loss of control
are manifest. As the Ninth Circuit itself candidly acknowledged, its decision would allow discovery of “context[ual]” information for the express purpose of allowing foreign prosecutors to “corroborate” matters such
as the purported identities and roles of allegedly cooperating foreign intelligence personnel. Pet. App. 25a;
see U.S. Br. 41-42. Even the Ninth Circuit recognized
that those matters are state secrets and that compelling
Mitchell and Jessen to confirm or deny them directly
would have harmed national security. Pet. App. 25a.
But having done so, the Ninth Circuit erred by facilitating the same harmful result indirectly, through the

12
overseas completion of a factual mosaic using evidentiary tiles extracted from former CIA contractors. 4
2. Mitchell and Jessen’s contractor status does not
diminish the national-security harm from discovery

Despite the CIA Director’s considered determination that significant national-security harm reasonably
could be expected to result from “Mitchell or Jessen
confirming or denying” whether a CIA detention facility was in Poland, Pet. App. 134a; see id. at 126a, 130a,
the Ninth Circuit decided for itself that they could provide such evidence without producing such harm, id. at
18a. In so doing, the Ninth Circuit did not address the
Director’s judgment that official confirmation or denial
of the matters at issue here would harm national security in a way that unofficial allegations never could. Id.
at 17a n.15. Instead, the Ninth Circuit reasoned that,
as former contractors, Mitchell and Jessen could not
provide the sort of “official” confirmation or denial that
would harm the CIA’s foreign partnerships. Respondents repeat the Ninth Circuit’s error, maintaining (Br.
36-39) that the contractors cannot “officially” confirm or
deny anything and “would merely provide unofficial
confirmation.”
Courts have long recognized, however, that evidence
from former officials and contractors is harmful in a
way that entirely “unofficial” speculation by government outsiders is not. See U.S. Br. 26-31. “[P]articularly ‘in the arena of intelligence and foreign relations,’
The government has previously explained that the suggestion
that it improperly invoked the privilege in Reynolds, see Council of
American-Islamic Relations Amici Br. 3-5, lacks merit. See U.S. Br.
in Opp. at 13-17, Herring v. United States, 547 U.S. 1123 (2006) (No.
05-821), https://go.usa.gov/xMrcn.
4

13
a statement made by ‘one in a position to know’ is given
unique meaning and weight.” Knight First Amdt. Inst.
v. CIA, No. 20-5045, 2021 WL 3821864, at *3 (D.C. Cir.
Aug. 27, 2021) (quoting Fitzgibbon v. CIA, 911 F.2d 755,
765 (D.C. Cir. 1990)).
Whereas a “stranger[’s]” public reassertion of previously published material “lends no additional credence
to it,” a former insider’s confirmation or denial of the
accuracy of such material is “quite different” because,
having obtained access to this information through
prior government service, he would be “in a position to
know of what he spoke.” Alfred A. Knopf, Inc. v. Colby,
509 F.2d 1362, 1370 (4th Cir.), cert. denied, 421 U.S. 908,
and 421 U.S. 992 (1975). Former government personnel
like Mitchell and Jessen, “unlike strangers referring to
earlier unattributed reports,” are also “bound by formal
agreements not to disclose [classified] information.”
Ibid. Compelling Mitchell and Jessen under oath to divulge information they obtained while performing official duties thus could, as Director Pompeo explained,
reasonably be expected to significantly harm the national security. U.S. Br. 12-13.
Respondents correctly note (Br. 37) that unauthorized disclosures by former officials and contractors are
not in every respect equivalent to an authorized official
acknowledgement by a current official. 5 But like the
Ninth Circuit’s focus on whether Mitchell and Jessen
Such disclosures, for example, would not vitiate the government’s ability later to withhold the same information under the
Freedom of Information Act’s national-security exception. Mobley
v. CIA, 806 F.3d 568, 583 (D.C. Cir. 2015) (explaining that unofficial
disclosures do not “waive” the government’s ability to assert an
“ ‘otherwise valid’ ” basis for withholding) (citation omitted); see,
e.g., New York Times v. CIA, 965 F.3d 109, 115-116 (2d Cir. 2020).
5

14
are “agents of the government” for jurisdictional purposes, Pet. App. 18a, that misses the point. Under
Reynolds, the dispositive question is whether compelled
disclosure could jeopardize national security. 345 U.S.
at 10. And neither the Ninth Circuit nor respondents
have offered any sound reason to question the CIA Director’s considered judgment that, under the circumstances here, confirmation or denial by Mitchell and
Jessen would harm national security because it could be
viewed by our partners abroad as tantamount to an official confirmation or denial from the CIA itself. Pet.
App. 134a-135a; see id. at 102a-103a (dissent from denial of rehearing en banc). That by itself is sufficient
reason to reverse the Ninth Circuit’s decision.
3. Purported “public knowledge” does not undermine
the national-security harm from discovery

Respondents argue at length (Br. 29-36) that Poland’s purported role in the CIA’s former detention and
interrogation program is public knowledge. But that
argument ignores the distinct and significant nationalsecurity harms that would result from an official confirmation or denial of Poland’s alleged involvement. And
even taken on its own terms, respondents’ argument is
deeply flawed on multiple levels.
a. As the government’s brief explained (at 29-34 &
n.4), courts have long “recognized that the fact that information resides in the public domain does not eliminate the possibility that further disclosures can cause
[national-security] harm.” Fitzgibbon, 911 F.2d at 766;
cf. Phillippi v. CIA, 655 F.2d 1325, 1331 (D.C. Cir. 1981)
(“There may be much left to hide, and if there is not,
that itself may be worth hiding.”). The state-secrets
privilege accordingly applies in such contexts to protect
against such harm. See, e.g., Halkin v. Helms, 690 F.2d

15
977, 992-993 & nn.56-58 (D.C. Cir. 1982) (applying statesecrets privilege, notwithstanding “widespread public
disclosures about the conduct of [CIA’s] Operation
CHAOS,” which “relied upon the cooperation of foreign
intelligence services,” because discovery would indirectly disclose the role of “particular” governments and
“ ‘breach’ ” the “ ‘understanding of confidentiality’ ” that
is “ ‘the sine qua non of liaison arrangements,’ ” posing a
“self-evident” danger of national-security harm) (citation
omitted).
The existence of media and other public reporting on
clandestine intelligence matters generally does not undermine relevant national-security risks identified by
the Executive Branch. U.S. Br. 30-31. Such reporting
about clandestine activity necessarily depends on information conveyed or developed by (often unidentified)
sources that may or may not be correct. The resulting
speculation in the public sphere may accurately identify
some aspects of a clandestine operation. But the speculation might also be inaccurate. Or it might have elements of truth while still missing the mark. Reports
might, for instance, identify discrete actions as suggesting an intelligence operation while wrongly identifying
the nature of that operation, or conflating it with other,
distinct intelligence activities. The potential for such
error is particularly acute when dealing with clandestine intelligence activities, which often employ tradecraft designed to mislead outside observers. Id. at 32,
34 n.5 (noting past errors in public speculation). 6
See, e.g., 1 CIA, Official History of the Bay of Pigs Operation
189-190, 200 (1979) (describing CIA’s past deceptive use of identical
tail numbers on multiple aircraft and false tail numbers copied from
adversary’s aircraft), https://go.usa.gov/xMCYq; Antonio J. Mendez, A Classic Case of Deception, Studies in Intelligence 1-3, 14-17,
6

16
b. This case illustrates the hazards of such speculation. Respondents have consistently asserted that the
CIA used “so-called ‘enhanced interrogation techniques’
—torture”—against Abu Zubaydah while he was purportedly detained “in a black site in Stare Kiejkuty, Poland” “[f]rom December 2002 until September 2003.”
Pet. App. 112a-114a. Respondents therefore seek discovery to hold “Polish officials accountable for their
complicity in [his] unlawful detention and torture.” Id.
at 114a; accord Resp. C.A. Br. 4-6, 18. And the Ninth
Circuit confidently declared that it is a “basic fact” that
Abu Zubaydah “was subjected to torture” in Poland.
Pet. App. 19a.
But the SSCI Report’s comprehensive review—
based on over six million pages of CIA records (SSCI
Report 9)—contradicts that speculation. The report determined that those records show that “the use of the
CIA’s enhanced interrogation techniques [on Abu Zubaydah] ceased on August 30, 2002,” many months before respondents assert he was transferred to Poland.
SSCI Report 231 n.1316; see id. at 42-43, 45 & n.214
(citing August 2002 email sent “[a]fter the use of the
CIA’s [EITs] ended”); Office of the Inspector General,
CIA, Counterterrorism Detention and Interrogation
Activities (September 2001-October 2003), at 84-85 (May
7, 2004), https://go.usa.gov/xMj6q; U.S. Br. 36.
The government, of course, cannot comment on any
classified location information at issue in this case. And
whether public speculation is accurate or inaccurate,

24 (Winter 1999-2000 Unclassified Ed.) (online version) (discussing
past CIA use of false or modified foreign-government documents as
“fundamental deception tradecraft in clandestine operations”), https://
go.usa.gov/xMb2r.

17
the government cannot confirm or deny public commentary about such matters without breaching the CIA’s
assurances of confidentiality to its foreign partners.
That dilemma illustrates the fundamental problem with
respondents’ approach: Often, the government cannot
respond to public speculation about classified matters
without confirming or denying the very secrets it is trying to protect. Compelling such a confirmation or denial would improperly allow the extraction of nationalsecurity information from those in a position to know
the actual facts based on public speculation—which
could result from, for example, individuals unlawfully
leaking (perhaps inaccurate) information; from hostile
intelligence services disseminating (mis)information; or
from media and other organizations attempting to identify and publicize the clandestine activities taken to protect the United States.
c. The Court thus need not and should not engage
with respondents’ effort to establish that the CIA operated a detention facility in Poland. But even taken on
their own terms, respondents’ arguments on that issue
are seriously flawed.
First, respondents assert (Br. 34) that “the district
court and the court of appeals found as a matter of fact
that a black site existed in Poland” and that those purported “factual findings” are reviewable only for “clear
error.” Respondents have never previously made that
argument, and with good reason: Neither court could
have properly made a factual finding about the alleged
existence of a CIA detention facility in Poland because
that fact is what the government asserted the statesecrets privilege to prevent Mitchell and Jessen from
being compelled to confirm or deny. And neither court
purported to do so. Courts of appeals, of course, do not

18
make factual findings. And the district court merely
noted respondents’ “alleg[ation]” that Abu Zubaydah
was detained in Poland and deemed the government’s
privilege assertion over evidence confirming or denying
that allegation “[un]convincing” in light of the “widely
reported” information on the subject. Pet. App. 36a,
52a-53a, 59a.
Second, no proceedings were held from which the
district court might have made a factual finding about
an alleged CIA detention facility in Poland. Indeed, the
record in this case about respondents’ allegation is
sparse. The government attached to its motion to quash
one news story (D. Ct. Doc. 30-8) and one Amnesty International report (D. Ct. Doc. 30-9) to illustrate the
“public speculation about which foreign countries and
intelligence services” assisted the CIA’s former detention and interrogation program. C.A. E.R. 198 & n.6.
Those documents were not submitted as proof that the
speculation was correct. Respondents, in turn, proffered two news stories discussing the locations of CIA
detention sites (C.A. E.R. 97-104) without attesting to
the truth of the matters they assert (id. at 94). Indeed,
respondents have provided no basis on which to assess
the accuracy of the statements in those four documents,
which also include speculation identifying by name at
least six other countries as purportedly connected to the
former clandestine CIA Program. See U.S. Br. 36-37. 7
The CIA has informed this Office that, since this case has come
to this Court, one or more foreign intelligence partners have expressed serious concerns about the U.S. Government confirming or
denying whether the CIA operated a detention facility in their territory. The CIA continues to conclude that such confirmations or
denials could reasonably be expected to harm its ongoing intelligence relationships.
7

19
In addition to those four documents, the government
filed a copy of a European Court of Human Rights
(ECHR) judgment to accompany its statement of interest and provide background for the origin of respondents’ Section 1782 application, to describe Poland’s filings before the ECHR, and describe the ECHR’s decision against Poland. C.A. E.R. 380, 649-651. But nothing in that filing suggested that the United States
agreed with or would be bound by the ECHR’s purported factual findings. The ECHR is a tribunal created by a treaty to which the United States is not a
party, and its judgment binds parties to the treaty only
if they were also parties to the particular case. 8 Even if
a federal court had issued a judgment identical to the
ECHR’s, no “ ‘issue of fact’ ” resolved by that judgment
would have preclusive effect on a private “person who
was not a party to [the] suit,” Taylor v. Sturgell, 553
U.S. 880, 892-893 (2008) (citation omitted); id. at 893895 (inapplicable exceptions), much less the United
States as a nonparty sovereign.
Third, respondents err in treating (Br. 30-33) the
ECHR’s factual discussion as authoritative. The ECHR’s
judgment was the product of a one-sided factual presentation, C.A. E.R. 548, and its relevant findings rest
heavily on adverse inferences. U.S. Br. 35-36. Such litigation might suffice to support the resulting judgment
against a party, but it cannot properly be accepted as a
definitive resolution of factual matters here.
The ECHR’s analysis reinforces that conclusion.
The court relied on two European politicians and one
See Convention for the Protection of Human Rights and Fundamental Freedoms, arts. 19, 46, Nov. 4, 1950, 213 U.N.T.S. 221, as
amended, https://www.echr.coe.int/Documents/Convention_ENG.
pdf; cf. Medellin v. Texas, 552 U.S. 491, 520-523 (2008).
8

20
political advisor it deemed to be experts, C.A. E.R. 511,
521, 523, including Swedish Senator Dick Marty, who
had prepared reports for the Council of Europe that,
the ECHR explained, relied on unidentified individuals
as anonymous “sources” and documentary materials
like flight records, but did not obtain actual classified
source materials. See, e.g., id. at 477-479.
Based on that testimony (and adverse inferences),
the ECHR concluded that actions, including false flightplan filings, were taken to disguise flights by aircraft
bearing particular tail numbers that landed in Poland
and purportedly were used in the former CIA Program.
C.A. E.R. 553, 559-560. The ECHR acknowledged that
“no direct evidence” showed that Abu Zubaydah was
transferred to Poland on one of those flights. Id. at 554.
But it nevertheless concluded that he was transferred
to Poland on such a flight (id. at 553-556) by “draw[ing]
[adverse] inferences” from Poland’s “lack of any explanation” and “refusal to disclose [necessary] documents”
(id. at 556; see id. at 549-550) and because it deemed
“[un]contest[ed]” and “unrebutted” (id. 548, 556) a circumstantial factual presentation comprised of material
from Senator Marty’s and his advisor’s testimony, Senator Marty’s 2007 report and similar reports, and flight
and landing documents. Id. at 553 ¶ 407, 556 ¶ 414 (citing id. at 429, 481-482, 488-489, 501-505, 518-521). Such
an assessment based on materials never submitted in
this case does not “definitively establish[]” (Br. 30) anything beyond the fact that the ECHR made such findings, and it provides no proper basis for disregarding
the Executive Branch’s privilege assertion in this case.

21
C. Section 1782 Does Not Authorize Respondents’ Extraordinary Discovery Request

The Ninth Circuit’s erroneous rejection of the statesecrets privilege requires reversal. But if the Court
prefers not to reach that issue, the government’s opening brief also provides a straightforward independent
ground for reversal: Section 1782 does not authorize
respondents’ extraordinary attempt to obtain evidence
on sensitive national-security matters so that they can
turn it over to Polish prosecutors investigating alleged
CIA clandestine intelligence activities abroad. Respondents assert (Br. 47-54) that the Section 1782 issue is
not properly presented and was correctly resolved below. They are wrong on both counts.
1. The question presented expressly encompasses
two distinct issues: (1) the rejection of the government’s privilege assertion “and” (2) the requirement
that discovery “proceed further under 28 U.S.C.
1782(a).” Pet. I. The petition accordingly argued that
reversal was warranted “quite aside from the statesecrets privilege,” Pet. 29, on the “independent” ground
that granting respondents’ discovery request would exceed the permissible scope of Section 1782(a)’s “discretion[ary]” authority, Pet. 30-31 (discussing factors in
Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S.
241 (2004)). The Section 1782 issue is thus squarely before the Court. See Sup. Ct. R. 14.1(a).
The government also properly presented its Section
1782 argument below. The government raised that argument in its statement of interest. C.A. E.R. 653-663.
Respondents identify no basis for concluding that the
government needed to reassert the same contentions in
its motion to quash. Nor do they explain their assertion
that the government needed to appeal the district

22
court’s preliminary order granting their Section 1782(a)
application. The court later changed course and “dismiss[ed] the Application.” Pet. App. 60a. Having raised
its Section 1782(a) argument at the outset, the government was entitled to rely on that argument as an alternative ground for affirmance. See Rivero v. City &
Cnty. of S.F., 316 F.3d 857, 862 (9th Cir. 2002) (an appellee “may urge affirmance on any ground appearing
in the record”).
2. Respondents contend (Br. 50-54) that the district
court permissibly exercised its discretion when it initially granted their Section 1782(a) application. But the
district court emphasized that its initial assessment of
those factors was preliminary because it would have
been “premature” to consider the burden on the United
States and other privilege-related matters before the
government asserted the privilege. Pet. App. 68a. Now
that the privilege has been asserted and the record further developed, a proper application of the Intel factors
compels dismissal.
In arguing otherwise, respondents assert (Br. 50-51)
that the district court did not err in ruling that the
Polish Government was “receptiv[e]” to evidentiary assistance because, they argue, the United States did not
inform the court that Poland’s president had refused to
release Poland’s former president of his secrecy duty,
which was necessary to allow the former president to
submit information to Polish prosecutors. But the district court’s more fundamental error—which respondents do not defend—was deciding the Polish Government’s receptivity to assistance based only on the views
of regional prosecutors. U.S. Br. 44.

23
Respondents also resist (Br. 51-52) the conclusion
that their discovery request should be denied as a circumvention of the United States–Poland MLAT because, they contend, the MLAT does not govern private
parties. That misses the point. Respondents sought
discovery at the invitation of Polish prosecutors after
the United States repeatedly denied the prosecutors’
MLAT requests on national-security grounds. U.S. Br.
8-9, 45-56. Although the MLAT does not bind private
parties, respondents’ attempted use of Section 1782 to
provide the Polish prosecutors with discovery from individuals whose knowledge derives from their official
work for the United States is a transparent attempt to
circumvent the policies embodied in the MLAT. Id. at
46. The conclusion that these circumstances required
dismissal is reinforced by the government’s protection
of national security in its official denials of the MLAT
requests in addition to its state-secrets-privilege assertion here.
Finally, respondents note (Br. 53) that the district
court did not resolve whether discovery was unduly intrusive or burdensome. The government agrees. U.S.
Br. 10. But that does not preclude the government from
arguing undue intrusion and burden to defend the district court’s judgment on review. Like the other relevant Intel factors, the resolution of that issue is particularly straightforward. Id. at 47-48. Discovery regarding the CIA’s foreign-intelligence activities is unquestionably “intrusive.” And the Ninth Circuit itself recognized that discovery would “no doubt impose[] a burden
on the government,” Pet. App. 26a, which would be compelled to monitor and police a discovery process pervaded by state secrets. Given the clarity of those issues,
the Court may appropriately resolve them directly in

24
light of the extraordinary circumstances presented by
respondents’ discovery request.
* * * * *
For the foregoing reasons and those stated in our
opening brief, the judgment of the court of appeals
should be reversed.
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General

SEPTEMBER 2021

APPENDIX
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON
Case No. 2:17-cv-00171-JLQ

IN RE APPLICATION OF ZAYN AL-ABIDIN MUHAMMAD
HUSAYN (ABU ZUBAYDAH) AND JOSEPH MARGULIES,
PETITIONERS

Filed: Oct. 5, 2017
PROOF OF SERVICE OF SUBPOENAS

Pursuant to Rule 45 of the Federal Rules of Civil
Procedure and the Court’s September 7, 2017 order
granting leave to serve subpoenas (ECF No. 23), I state
as follows:
1. My name is John Chamberlain. I am counsel for
Petitioners Abu Zubaydah and Joseph Margulies and am
admitted pro hac vice in this matter.
2. On October 4, 2017, I served the subpoenas attached hereto upon Brian Paszamant, who is counsel for
Respondents John “Bruce“ Jessen and James Elmer
Mitchell. Mr. Paszamant accepted service by electronic
mail and waived personal service on behalf of Respondents. I served with the subpoenas a copy of the Court’s
September 7, 2017 order. Fees were tendered in the
amount of $50.70 for each witness, representing the witnesses’ fees for attendance and travel.

(1a)

2a
3. I have served a copy of this proof of service on
the United States Department of Justice by filing it
through the Court’s ECF system, which will send notification to Andrew Irvin Warden, attorney for the
United States.
4. I have served a copy of this proof of service on
counsel for Respondents Mitchell and Jessen by serving
it upon their counsel via electronic mail. Counsel for
Respondents Mitchell and Jessen in advance agreed to
accept service of this proof of service by electronic mail.
I declare under penalty of perjury that the foregoing is
true and correct.
Dated: Oct. 5, 2017
Respectfully submitted,

LLP

/s/JOHN CHAMBERLAIN
JOHN CHAMBERLAIN
john.chamberlain@pillsburylaw.com
PILLSBURY WINTHROP SHAW PITTMAN
1200 Seventeenth Street, NW
Washington, DC 20036
(202) 663-8000
Jerry Moberg
jmoberg@jmlawps.com
JERRY MOBERG & ASSOCIATES
124 Third Avenue, SW
Ephrata, WA 98823
(509) 754-2356

5a
INSTRUCTIONS: SUBPOENA TO PRODUCE
DOCUMENTS

The following instructions shall govern your response
and production of documents:
1. Respondent shall furnish all requested documents
in Respondent’s possession, care, custody, or control at
the time of production.
2. In answering each discovery request, Respondent
shall make a diligent search of Respondent’s records
and other papers and materials in Respondent’s possession, custody, or control.
3. If any document requested existed at one time, but
is no longer in your possession, custody or control or no
longer exists, for each such document: (a) identify the
document, including, without limitation, the following
information: author(s); addressee(s); indicated or blind
copy recipient(s); date; and subject matter; (b) provide
a summary of the document’s contents; (c) state
whether it is missing or lost, was destroyed, was transferred voluntarily or involuntarily to others, or was otherwise disposed of; and (d) provide all available information concerning the circumstances of such disposition, including date of disposal; reason for disposal; person authorizing the disposal; the person disposing of the
document; and the last known location of the document.
4. In the event that any document called for by this
document request is withheld on the basis of a claim of
privilege, that document is to be identified in a privilege
log as follows: author(s); addressee(s); indicated or blind
copy recipient(s); date; subject matter; number of pages;
attachments or appendices; all persons to whom distributed, shown, or explained; the present custodian(s); the

6a
nature of the privilege asserted; and the circumstances
that give rise to the privilege.
5. In the event that any information is redacted from
a document produced pursuant to this document request, that information is to be identified and the basis
upon which such information is redacted should be fully
stated.
6. In the event that multiple copies or versions of a
document exist, produce all non-identical copies of the
document, including any and all drafts of the document.
7. All documents existing in electronic form shall be
produced in electronic form in a manner to preserve,
without alteration or modification, all meta-data associated with the electronic document, including without
limitation extracted text.
8. Documents not otherwise responsive to this request shall be produced if such documents concern or
are attached to documents that are called for by these
requests, including but not limited to routing slips, transmittal memoranda, and cover letters.
9. At the time and place of production of the documents requested herein, the documents requested are
to be produced in the same order as maintained in the
ordinary course of business.
10. For each document produced, identify the specific
document request category to which it is responsive.
11. All documents shall be produced in the file folder,
envelope or other container in which the documents
were kept or maintained. If for any reason the container cannot be produced, copies of all labels or other
identifying marks shall be produced.

7a
12. As used herein, the singular form of a word shall
be interpreted to include the plural form and the plural
form shall be interpreted to include the singular whenever appropriate in order to bring within the scope of
this request any documents which might otherwise be
considered to be beyond its scope.
13. Except as otherwise specified, the relevant time
period for these requests is from January 2001 through
December 2005, and shall include all documents that relate in whole or in part to such period, or to events or
circumstances during such period, even though dated,
prepared, generated, used or received prior to or subsequent to that period.
SCHEDULE OF DOCUMENTS TO BE PRODUCED

1. All documents, memoranda and correspondence
concerning the establishment of the detention facility in
Stare Kiejkuty, Poland.
2. All documents, memoranda and correspondence
concerning the operation, purpose, and use of the detention facility in Stare Kiejkuty, Poland.
3. All documents, memoranda and correspondence
concerning the identity of (present or former) Polish officials involved in the establishment or operation of the
detention facility in Stare Kiejkuty, Poland.
4. All documents, memoranda and correspondence
generated by (present or former) Polish officials between 2001 and 2005.
5. All documents, memoranda and correspondence
generated by Respondent between 2001 and 2005 concerning the detention facility in Stare Kiejkuty, Poland.

8a
6. All documents, memoranda and correspondence
generated by Respondent when in Poland, between
2001 and 2005, concerning the detention facility in Stare
Kiejkuty, Poland.
7. All documents, memoranda and correspondence
concerning Petitioner Abu Zubaydah.
8. All documents, memoranda and correspondence
between Polish officials and U.S. personnel concerning
the detention facility at Stare Kiejkuty, Poland.
9. All documents, memoranda and correspondence
concerning the detention facility at Stare Kiejkuty’s access to Polish amenities such as water and electricity.
10. All documents, memoranda and correspondence
concerning the use of interrogation techniques, conditions of confinement, and torture of those being held in
Stare Kiejkuty, Poland.
11. All documents, memoranda and correspondence
concerning any contracts made between Polish government officials or private persons residing in Poland and
U.S. personnel for the use of the property upon which
the detention facility at Stare Kiejkuty sat.
12. All documents, memoranda and correspondence
concerning any exchange of money between Polish officials and those operating the detention facility in Stare
Kiejkuty, Poland.
13. All documents, memoranda and correspondence
concerning flights in and out of Stare Kiejkuty, Poland
between 2001 and 2005.

11a
INSTRUCTIONS: SUBPOENA TO PRODUCE
DOCUMENTS

The following instructions shall govern your response
and production of documents:
1. Respondent shall furnish all requested documents
in Respondent’s possession, care, custody, or control at
the time of production.
2. In answering each discovery request, Respondent
shall make a diligent search of Respondent’s records
and other papers and materials in Respondent’s possession, custody, or control.
3. If any document requested existed at one time, but
is no longer in your possession, custody or control or no
longer exists, for each such document: (a) identify the
document, including, without limitation, the following
information: author(s); addressee(s); indicated or blind
copy recipient(s); date; and subject matter; (b) provide
a summary of the document’s contents; (c) state
whether it is missing or lost, was destroyed, was transferred voluntarily or involuntarily to others, or was otherwise disposed of; and (d) provide all available information concerning the circumstances of such disposition, including date of disposal; reason for disposal; person authorizing the disposal; the person disposing of the
document; and the last known location of the document.
4. In the event that any document called for by this
document request is withheld on the basis of a claim of
privilege, that document is to be identified in a privilege
log as follows: author(s); addressee(s); indicated or blind
copy recipient(s); date; subject matter; number of pages;
attachments or appendices; all persons to whom distributed, shown, or explained; the present custodian(s); the

12a
nature of the privilege asserted; and the circumstances
that give rise to the privilege.
5. In the event that any information is redacted from
a document produced pursuant to this document request, that information is to be identified and the basis
upon which such information is redacted should be fully
stated.
6. In the event that multiple copies or versions of a
document exist, produce all non-identical copies of the
document, including any and all drafts of the document.
7. All documents existing in electronic form shall be
produced in electronic form in a manner to preserve,
without alteration or modification, all meta-data associated with the electronic document, including without
limitation extracted text.
8. Documents not otherwise responsive to this request shall be produced if such documents concern or
are attached to documents that are called for by these
requests, including but not limited to routing slips, transmittal memoranda, and cover letters.
9. At the time and place of production of the documents requested herein, the documents requested are
to be produced in the same order as maintained in the
ordinary course of business.
10. For each document produced, identify the specific
document request category to which it is responsive.
11. All documents shall be produced in the file folder,
envelope or other container in which the documents
were kept or maintained. If for any reason the container cannot be produced, copies of all labels or other
identifying marks shall be produced.

13a
12. As used herein, the singular form of a word shall
be interpreted to include the plural form and the plural
form shall be interpreted to include the singular whenever appropriate in order to bring within the scope of
this request any documents which might otherwise be
considered to be beyond its scope.
13. Except as otherwise specified, the relevant time
period for these requests is from January 2001 through
December 2005, and shall include all documents that relate in whole or in part to such period, or to events or
circumstances during such period, even though dated,
prepared, generated, used or received prior to or subsequent to that period.
SCHEDULE OF DOCUMENTS TO BE PRODUCED

1. All documents, memoranda and correspondence
concerning the establishment of the detention facility in
Stare Kiejkuty, Poland.
2. All documents, memoranda and correspondence
concerning the operation, purpose, and use of the detention facility in Stare Kiejkuty, Poland.
3. All documents, memoranda and correspondence
concerning the identity of (present or former) Polish officials involved in the establishment or operation of the
detention facility in Stare Kiejkuty, Poland.
4. All documents, memoranda and correspondence
generated by (present or former) Polish officials between 2001 and 2005.
5. All documents, memoranda and correspondence
generated by Respondent between 2001 and 2005 concerning the detention facility in Stare Kiejkuty, Poland.

14a
6. All documents, memoranda and correspondence
generated by Respondent when in Poland, between
2001 and 2005, concerning the detention facility in Stare
Kiejkuty, Poland.
7. All documents, memoranda and correspondence
concerning Petitioner Abu Zubaydah.
8. All documents, memoranda and correspondence
between Polish officials and U.S. personnel concerning
the detention facility at Stare Kiejkuty, Poland.
9. All documents, memoranda and correspondence
concerning the detention facility at Stare Kiejkuty’s access to Polish amenities such as water and electricity.
10. All documents, memoranda and correspondence
concerning the use of interrogation techniques, conditions of confinement, and torture of those being held in
Stare Kiejkuty, Poland.
11. All documents, memoranda and correspondence
concerning any contracts made between Polish government officials or private persons residing in Poland and
U.S. personnel for the use of the property upon which
the detention facility at Stare Kiejkuty sat.
12. All documents, memoranda and correspondence
concerning any exchange of money between Polish officials and those operating the detention facility in Stare
Kiejkuty, Poland.
13. All documents, memoranda and correspondence
concerning flights in and out of Stare Kiejkuty, Poland
between 2001 and 2005.

